APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the United States Court of
Appeals
for
the
Ninth
Circuit,
United States v. Morgovsky, Nos. 1810486, 18-10448 (Sept. 22, 2020) ................ App-1
Appendix B
Order of the United States Court of
Appeals for the Ninth Circuit Denying
Rehearing, United States v. Morgovsky,
Nos. 18-10486, 18-10448 (Dec. 14, 2020) .. App-11
Appendix C
Judgment of the Northern District Court
of California, United States v. Irina
Morgovsky, No. CR-16-00411-003 VC
(Nov. 5, 2018) ............................................. App-13
Judgment of the Northern District Court
of California, United States v. Naum
Morgovsky, No. CR-16-00411-001 VC
(Dec. 13, 2018) ........................................... App-29
Appendix D
Excerpts of Transcript of January 16,
2019 Proceedings, United States v. Naum
& Irina Morgovsky, No. CR 16-0411 VC
(N.D. Cal. filed Jan. 17, 2019), Doc. 449... App-46

ii
Appendix E
Relevant
Constitutional
Statute, Regulation, & Rule

Provisions,

U.S. Const. art. I, § 1 .......................... App-48
U.S. Const. art. III, § 2........................ App-49
22 U.S.C. § 2778 .................................. App-50
22 C.F.R. § 127.1 ................................. App-71
Fed. R. Crim. P. 12(b)(3) ..................... App-75

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 18-10486
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

NAUM MORGOVSKY,
Defendant-Appellant.
-----------------------------------------------------________________
No. 18-10448
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

IRINA MORGOVSKY,
Defendant-Appellant.
________________
Filed September 22, 2020
________________
MEMORANDUM *
NOT FOR PUBLICATION

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App-2
Appeals from the United States
District Court for the Northern District of California
Vince Chhabria, District Judge, Presiding
D.C. Nos. 3:16-cr-00411-VC-1 & VC-3
Submitted September 16, 2020 **
San Francisco, California
Before: WALLACE, TASHIMA, and BADE, Circuit
Judges.
Naum and Irina Morgovsky appeal from their
convictions and sentences, following guilty pleas, for
conspiracy to violate the International Traffic in Arms
Regulations (ITAR) in violation of the Arms Export
Control Act (AECA), 22 U.S.C. §§ 2751–2799aa-2.
Naum also appeals his convictions and sentences for
money laundering in violation of 18 U.S.C.
§ 1956(a)(1)(B) and (a)(2)(A). We have jurisdiction
pursuant to 28 U.S.C. § 1291, and we affirm.
1. The Morgovskys argue that the district court
committed a variety of errors during each of their plea
proceedings. Because the Morgovskys raised none of
these challenges in the district court, we review for
plain error. United States v. Pena, 314 F.3d 1152, 1155
(9th Cir. 2003). “Plain error is (1) error, (2) that is
plain, and (3) that affects substantial rights. If all
three conditions are met, we may then exercise our
discretion to notice a forfeited error, but only if (4) the
error seriously affects the fairness, integrity, or public
reputation of judicial proceedings.” United States v.
Yijun Zhou, 838 F.3d 1007, 1012 (9th Cir. 2016)
(quotation marks omitted).
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App-3
Naum and Irina point out that the district court
failed to recite the elements of their offenses during
both their plea colloquies. A district court must state
the elements of an offense during a plea colloquy, and
the failure to do so is error under well-settled Ninth
Circuit precedent. United States v. Covian-Sandoval,
462 F.3d 1090, 1095 (9th Cir. 2006). However, neither
Naum nor Irina proves that the error affected their
substantial rights, as the third step of the plain error
standard requires. United States v. Dominguez
Benitez, 542 U.S. 74, 76 (2004). An error affects
substantial rights where there is “a reasonable
probability that, but for the error, [the defendant]
would not have entered the plea.” Id. Here, both Naum
and Irina confirmed in writing and during their plea
colloquies that they fully understood the charges made
against them. These facts, combined with the
Morgovskys’ representation by counsel in the district
court, strongly support their “full comprehension of
the nature of the offense[s].” Covian-Sandoval, 462
F.3d at 1095.
Next, Naum and Irina argue that the district
court failed to determine a sufficient factual basis for
their guilty pleas. “[A] court need not rely on the plea
colloquy alone and may conclude that a factual basis
exists from anything that appears on the record.”
United States v. Mancinas-Flores, 588 F.3d 677, 682
(9th Cir. 2009) (internal quotation marks and citation
omitted). The statements that the district court relied
on (particularly from the Morgovskys’ presentence
reports (PSRs) and their admissions during plea
proceedings) establish a basis for each of the facts the
Morgovskys now dispute: specifically, that they lacked
the requisite license to export ITAR-controlled

App-4
equipment to Russia, that they intentionally agreed to
join the conspiracy, and that they knew their
conspiracy was illegal. 1
The Morgovskys also argue that the district court
failed to ensure their pleas were voluntary because
Irina’s plea agreement was contingent on Naum’s
guilty plea. Apart from citing generic statements that
a district court should closely scrutinize “package plea
deal” arrangements, see, e.g., United States v. Caro,
997 F.2d 657, 659 (9th Cir. 1993), the only specific
argument they make on this issue is that the district
court failed to advise Irina that she could decline to
enter a guilty plea even after she signed the plea
agreement. But the record flatly contradicts this
assertion: the court stated at her plea hearing, “You
do have the right to continue to plead not guilty. Do
you understand that?” Irina responded, “Yes.”
Irina also argues that the district court failed to
determine her competence adequately once it learned
that she was taking an antidepressant. But after
learning that Irina was “under the influence of some
medication,” the district court satisfied its obligations
to determine “what type of drug [she] ha[d] taken” and
“whether the drug [was] affecting [her] mental state.”
United States v. Carter, 795 F.3d 947, 954 (9th Cir.
2015).
The Morgovskys fault the district court for relying on “totally
defective PSRs, virtually identical for both Morgovskys.” They
are correct that many of the relevant portions of their PSRs are
similar, but they cite no authority that it is improper for two coconspirators’ PSRs to closely mirror each other, and they fail to
show that the factual findings the district court adopted from the
PSRs were unreliable.
1

App-5
The court asked Irina whether she was “currently
under the influence of any drug, medication or
alcoholic beverage that would hinder [her] ability to
understand the proceedings here today.” She
responded, “No, I’m taking some antidepressant, but
they’re not affect [sic] my ability to understand any of
the proceedings.” Irina suggests that her “short and
contradictory answers” were “red flags” that the
district court failed to investigate, but she fails to
explain how her answers were contradictory, or what
about them should have raised the district court’s
suspicion.
Next, Naum and Irina argue that their pleas were
“not knowing and voluntary as a constitutional matter
because the district court failed to advise [them] of the
law in relation to facts and demonstrate on the record
that [they] understood the complex charg[es] to which
[they were] pleading.” We reject this general
argument for the same reasons we rejected the
Morgovskys’ specific challenges above: the record
amply demonstrates that they understood the charges
to which they were pleading guilty, they were
represented by counsel, and they gave no indication
that their decisions to plead guilty were anything but
voluntary and intelligent. Finally, the Morgovskys’
cumulative error arguments necessarily fail because
only one error occurred. United States v. Solorio, 669
F.3d 943, 956 (9th Cir. 2012).
2. The Morgovskys argue that their conspiracy
convictions under ITAR and the AECA should be
vacated because Congress, when it enacted 22 U.S.C.

App-6
§ 2778, did not establish criminal conspiracy liability. 2
Because Irina has generally waived her appeal rights
pursuant to her plea agreement, we do not entertain
her challenge. United States v. Rahman, 642 F.3d
1257, 1259 (9th Cir. 2011). 3 Moreover, because Naum
did not raise this challenge in the district court as
Federal Rule of Criminal Procedure 12(b)(3) requires,
and he has not shown good cause, United States v.
Guerrero, 921 F.3d 895, 897 (9th Cir. 2019) (per
curiam), cert. denied, 140 S. Ct. 1300 (2020), he has
waived his challenge on appeal except insofar as he
“attack[s] the constitutionality of the law under which
he is charged,” United States v. Parker, 761 F.3d 986,
991 (9th Cir. 2014) (internal quotation marks and
citation omitted). However, we review de novo Naum’s
constitutional argument that “under the separation of
powers, Congress had no power and thus could not
validly delegate to the Executive Branch the authority
Notwithstanding the Morgovskys’ own inconsistent
characterizations of their challenge, it plainly consists of two
distinct arguments: (1) that “Congress did not delegate to the
Executive Branch its legislative authority . . . to create a separate
crime of conspiracy,” and (2) that even if Congress purported to
delegate this authority, such a delegation violates the separation
of powers.
2

Although “even a valid appellate waiver does not prevent
courts from reviewing an illegal sentence,” United States v.
Pollard, 850 F.3d 1038, 1041 (9th Cir. 2017), the rationale
underlying this exception does not extend to challenging a
statute of conviction because nothing prevents a defendant from
raising the latter during pretrial proceedings. See, e.g., United
States v. Johnson, 67 F.3d 200, 203 n.6 (9th Cir. 1995) (discussing
“the possibility that a sentencing error could be entirely
unforeseeable and therefore not barred by the defendant’s appeal
waiver”).
3

App-7
to create new generic crimes, such as conspiracy,
separate and distinct from those proscribed by the
statute enacted by Congress.” 4 United States v.
Tabacca, 924 F.2d 906, 912 (9th Cir. 1991); United
States v. Gilbert, 813 F.2d 1523, 1526 (9th Cir. 1987).
In United States v. Gurrola-Garcia, we rejected
the argument that an earlier, similarly-worded
version of the same AECA provision “constitute[d] an
unconstitutional
congressional
delegation
of
legislative power to the executive” insofar as it
“empower[ed] the President to criminalize ‘attempt’
conduct.” 547 F.2d 1075, 1078 (9th Cir. 1976). We
reasoned, “It is well established that Congress may
constitutionally provide a criminal sanction for the
violation of regulations which it has empowered the
President or an agency to promulgate.” Id. at 1079
(collecting cases); see also United States v. Chi Tong
Kuok, 671 F.3d 931, 934, 939 (9th Cir. 2012) (holding
that Congress set forth an intelligible principle in
charging the President to designate, and regulate the
export of, “defense articles and defense services”).
Naum argues that Gurrola-Garcia is distinguishable
because it addressed attempt liability, not conspiracy
liability, but this difference is immaterial to our
analysis. Thus, we affirm the Morgovskys’ conspiracy
convictions.
Naum’s argument that Congress did not delegate the
authority to criminalize conspiracy (contrasted with his
argument that Congress could not do so) is not a constitutional
challenge. See Dalton v. Specter, 511 U.S. 462, 472 (1994)
(collecting cases and distinguishing “between claims of
constitutional violations and claims that an official has acted in
excess of his statutory authority”).
4

App-8
3. Naum argues that the district court violated his
Sixth Amendment right to counsel by denying his
request for substitution of counsel before his
sentencing hearing. “We review a district court’s
denial of a motion for substitution of counsel for abuse
of discretion.” United States v. Rivera-Corona, 618
F.3d 976, 978 (9th Cir. 2010) (citation omitted). “[W]e
consider (1) the timeliness of the substitution motion
and the extent of resulting inconvenience or delay;
(2) the adequacy of the district court’s inquiry into the
defendant’s complaint; and (3) whether the conflict
between the defendant and his attorney was so great
that it prevented an adequate defense.” Id. (citation
omitted). Here, the district court plainly did not abuse
its discretion. After holding both open and ex parte
hearings, the district court found that Naum was
attempting to delay the proceedings and that his lastminute request and criticism of his counsel fit a
pattern of manipulative behavior the court had
observed from Naum throughout the proceedings.
Given the last-minute timing of the substitution
request, Naum’s lack of a convincing reason for
requesting the substitution, and the district court’s
findings that Naum had pressured his wife to fire her
lawyers and had illicitly filed documents in his
lawyer’s name, we hold that the district court’s
application of the standard was not “illogical,”
“implausible,” or “without support in the record.”
United States v. Robertson, 895 F.3d 1206, 1213 (9th
Cir. 2018) (internal quotation marks omitted).
4. Naum argues that the district court improperly
conditioned its acceptance of his guilty plea on his
admission of forfeiture allegations. We review
unpreserved challenges to forfeiture proceedings for

App-9
plain error, United States v. Soto, 915 F.3d 675, 678
(9th Cir. 2019), and we find no plain error here. By
pressing Naum to indicate whether he understood the
forfeiture allegations against him, the district court
merely followed Federal Rule of Criminal Procedure
11(b)(1)(J), which requires “the court [to] inform the
defendant of, and determine that the defendant
understands, . . . any applicable forfeiture.” We also
reject Naum’s arguments that the district court failed
to “determine what property is subject to forfeiture”
and to hold a forfeiture hearing. See Fed. R. Crim.
P. 32.2. The district court satisfied Rule 32.2’s first
requirement
when
it
adopted
the
PSR’s
recommendation on forfeiture, and it was not required
to hold a hearing because the parties never requested
one. See id. (b)(1)(B) (requiring a hearing “on either
party’s request”).
5. Naum argues that the district court erred in
imposing a $1 million fine based on its finding,
contrary to the PSR, that Naum had the ability to pay.
In his opening brief, Naum asserts both that he lacks
the present ability to pay the fine and that he lacks
the future earning capacity to pay. The only argument
Naum preserved for appeal is that the district court
erred by finding that Naum had the ability to pay
because he was hiding assets. He has waived the
argument that the district court erred on any other
ground. “A district court’s finding of whether a
defendant is able to pay [a] fine is reviewed for clear
error.” United States v. Orlando, 553 F.3d 1235, 1240
(9th Cir. 2009). Even assuming that the district court
erroneously determined Naum was hiding assets,
Naum’s challenge still fails because the district court
clearly based its fine decision on two alternative,

App-10
independently sufficient grounds: after Naum’s
counsel objected to the court’s finding that Naum was
hiding assets, the district court clarified that “even if
he lacks the ability to pay now, he’s . . . not likely to
lack the ability to pay in the future.” Because Naum
has waived any argument that the district court erred
on the latter ground, we affirm the district court’s
imposition of a fine.
AFFIRMED. 5

5 Because we affirm the district court, we do not reach Naum’s
request for reassignment to a different district court judge on
remand.

App-11
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 18-10486
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

NAUM MORGOVSKY,
Defendant-Appellant.
-----------------------------------------------------________________
No. 18-10448
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

IRINA MORGOVSKY,
Defendant-Appellant.
________________
Filed December 14, 2020
D.C. Nos. 3:16-cr-00411-VC-1 & VC-3
ORDER
Before: WALLACE, TASHIMA, and BADE, Circuit
Judges.
The panel has voted to deny the petition for panel
rehearing. Judge Bade has voted to deny the petition
for rehearing en banc, and Judges Wallace and

App-12
Tashima have so recommended. The full court has
been advised of the petition for rehearing en banc, and
no judge of the court has requested a vote on the
petition for rehearing en banc. See Fed. R. App. P.
35(b).
The petition for panel rehearing and the petition
for rehearing en banc are DENIED.

App-13
Appendix C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________
USDC Case Number: CR-16-00411-003 VC
BOP Case Number: DCAN316CR00411-003
USM Number: 24239-111
Defendant’s Attorney: Shaffy Moeel (Retained)
________________
UNITED STATES OF AMERICA
v.
IRINA MORGOVSKY
________________
Filed November 5, 2018
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:


pleaded guilty to count: Nine of the Superseding
Indictment.



pleaded nolo contendere to count(s): which was
accepted by the court.



was found guilty on count(s): after a plea of not
guilty.

App-14
The defendant is adjudicated guilty of these offenses:
Title &
Section
22 U.S.C.
§§ 2778 and
2778(c)

Nature of
Offense

Offense
Ended

Conspiracy to
August 25,
Violate the
2016
International
Traffic in
Arms
Regulations in
Violations of
the Arms
Export Control
Act

Count
9

The defendant is sentenced as provided in pages 2
through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.


The defendant has been found not guilty on
count(s):



Count 6 is dismissed on the motion of the
United States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States attorney of material
changes in economic circumstances.

App-15
10/31/2018
Date of Imposition of Judgment

Signature of Judge
The Honorable Vince Chhabria
United States District Judge
Name & Title of Judge
11/5/2018
Date
DEFENDANT: Irina Morgovsky
CASE NUMBER: CR-16-00411-003 VC
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of: 18 months.
The appearance bond is hereby exonerated, or upon
surrender of the defendant as noted below. Any cash
bail plus interest shall be returned to the owner(s)
listed on the Affidavit of Owner of Cash Security form
on file in the Clerk’s Office.


The
Court
makes
the
following
recommendations to the Bureau of Prisons:
Designation to a facility in Southern Florida to
facilitate family visits.



The defendant is remanded to the custody of the
United States Marshal.



The defendant shall surrender to the United
States Marshal for this district:

App-16





at on (no later than 2:00 pm).



as notified by the United States Marshal.

The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:


by 2:00 pm on 1/4/2019 (no later than 2:00
pm). If a B.O.P. Facility has not been
designated by this date, the defendant is
ordered to resport to the U.S. Marshal’s
Office at 450 Golden Gate Ave., 20th Floor,
San Francisco.



as notified by the United States Marshal.



as notified by the Probation or Pretrial
Services Office.
RETURN

I have executed this judgment as follows:
Defendant delivered on _______________________
to _______________________________________ at
________________________________________ ,
with a certified copy of this judgment.
UNITED STATES MARSHAL
By:
DEPUTY UNITED STATES MARSHAL

App-17
DEFENDANT: Irina Morgovsky
CASE NUMBER: CR-16-00411-003 VC
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of: Three (3)
years.
MANDATORY CONDITIONS OF SUPERVISION
1) You must not commit another federal, state or
local crime.
2) You must not unlawfully possess a controlled
substance.
3) You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug
tests thereafter, as determined by the court.


The above drug testing condition is
suspended, based on the court’s
determination that you pose a low risk
of future substance abuse. (check if
applicable)

4) 

You must make restitution in accordance
with 18 U.S.C. §§ 3663 and 3663A or any
other statute authorizing a sentence of
restitution. (check if applicable)

5) 

You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)

App-18
6) 

You must comply with the requirements of
the Sex Offender Registration and
Notification Act (34 U.S.C. § 20901, et seq.)
as directed by the probation officer, the
Bureau of Prisons, or any state sex offender
registration agency in which you reside,
work, are a student, or were convicted of a
qualifying offense. (check if applicable)

7)



You must participate in an approved
program for domestic violence. (check if
applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
DEFENDANT: Irina Morgovsky
CASE NUMBER: CR-16-00411-003 VC
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the
court, and bring about improvements in your conduct
and condition.
1)

You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of RELEASE, unless the
probation officer instructs you to report to a
different probation office or within a different
time frame.

App-19
2)

After initially reporting to the probation office,
you will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must
report to the probation officer as instructed.

3)

You must not knowingly leave the federal judicial
district where you are authorized to reside
without first getting permission from the court or
the probation officer.

4)

You must follow the instructions of the probation
officer related to the conditions of supervision.

5)

You must answer truthfully the questions asked
by your probation officer.

6)

You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements
(such as the people you live with, for example),
you must notify the probation officer at least 10
days before the change. If notifying the probation
officer in advance is not possible due to
unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming
aware of a change or expected change.

7)

You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by these and the special
conditions of your supervision that he or she
observes in plain view.

8)

You must work at least part-time (defined as 20
hours per week) at a lawful type of employment
unless excused from doing so by the probation

App-20
officer for schooling, training, community service
or other acceptable activities. If you plan to
change where you work or anything about your
work (such as your position or your job
responsibilities), you must notify the probation
officer at least 10 days before the change. If
notifying the probation officer at least 10 days in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
9)

You must not communicate or interact with
someone you know is engaged in criminal activity.
You must not associate, communicate, or interact
with any person you know has been convicted of a
felony, unless granted permission to do so by the
probation officer.

10) If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
11) You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12) You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose
of causing bodily injury or death to another person
such as nunchakus or tasers).


If the probation officer determines that you pose a
risk to a third party, the probation officer may
require you to notify the person about the risk and

App-21
you must comply with that instruction. The
probation officer may contact the person and
confirm that you have notified the person about
the risk. (check if applicable)
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. I understand that the court may (1) revoke
supervision, (2) extend the term of supervision, and/or
(3) modify the conditions of supervision upon a finding
of a violation of probation or supervised release.
(Signed)

Defendant

Date

U.S. Probation Officer/
Designated Witness

Date

DEFENDANT: Irina Morgovsky
CASE NUMBER: CR-16-00411-003 VC
SPECIAL CONDITIONS OF SUPERVISION
1.

You must pay any special assessment and fine
that is imposed by this judgment and that
remains unpaid at the commencement of the term
of supervised release.

2.

You must not open any new lines of credit and/or
incur new debt without the prior permission of the
probation officer.

3.

You must provide the probation officer with access
to any financial information, including tax
returns, and shall authorize the probation officer

App-22
to conduct credit checks and obtain copies of
income tax returns.
4.

You must not possess any false identification and
shall provide your true identity at all times.

5.

You must cooperate in the collection of DNA as
directed by the probation officer.

6.

You must not own or possess any firearms,
ammunition, destructive devices, or other
dangerous weapons.

7.

You must submit your person, residence, office,
vehicle, electronic devices and their data
(including cell phones, computers, and electronic
storage media), or any property under your
control to a search. Such a search shall be
conducted by a United States Probation Officer or
any federal, state or local law enforcement officer
at any time with or without suspicion. Failure to
submit to such a search may be grounds for
revocation; you must warn any residents that the
premises may be subject to searches.

App-23
DEFENDANT: Irina Morgovsky
CASE NUMBER: CR-16-00411-003 VC
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments.

TOTALS

Assessment

JVTA
Assessment *

Fine

Restitution

$100

N/A

$15,000

N/A



The determination of restitution is deferred until
. An Amended Judgment in a Criminal Case (AO
245C) will be entered after such determination.



The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.

If the defendant makes a partial payment, each payee
shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or
percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.

*

22.

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-

App-24
Name of
Payee

Total
Loss **

Restitution
Ordered

Priority of
Percentage

***
TOTALS

$0.00

$0.00



Restitution amount ordered pursuant to plea
agreement $



The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(f). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).



The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:


the interest requirement is waived for the .



the interest requirement is waived for the is
modified as follows:

** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23,
1996.

App-25
DEFENDANT: Irina Morgovsky
CASE NUMBER: CR-16-00411-003 VC
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows*:
A 

Lump sum payment of ___________________
due immediately, balance due


not later than, or



in accordance with C, D, or E,
and/or F below); or

B 

Payment to begin immediately (may be
combined with C, D, or F below); or

C 

Payment in equal (e.g., weekly, monthly,
quarterly) installments of _ over a period of
(e.g., months or years), to commence (e.g.,
30 or 60 days) after the date of this
judgment; or

D 

Payment in equal (e.g., weekly, monthly,
quarterly) installments of _ over a period of
(e.g., months or years), to commence (e.g.,
30 or 60 days) after release from
imprisonment to a term of supervision; or

*
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution,
(7) penalties, and (8) costs, including cost of prosecution and
court costs.

App-26
E 

Payment during the term of supervised
release will commence within (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay
at that time; or

F

Special instructions regarding the payment
of criminal monetary penalties:
When incarcerated, payment of criminal
monetary penalties, totaling $15,100, are
due during imprisonment at the rate of not
less than $25 per quarter and payment
shall be through the Bureau of Prisons
Inmate Financial Responsibility Program.
Once the defendant is on supervised
release, criminal monetary payments must
be paid in monthly payments of not less
than $500 or at least 10 percent of
earnings, whichever is greater, to
commence no later than 60 days from
placement on supervision. Any established
payment plan does not preclude
enforcement efforts by the US Attorney’s
Office if the defendant has the ability to
pay more than the minimum due. The
payments shall be made to the Clerk of
U.S. District Court, Attention: Financial
Unit, 450 Golden Gate Ave., Box 36060,
San Francisco, CA 94102. Criminal
monetary payments shall be made to the
Clerk of U.S. District Court, 450 Golden
Gate Ave., Box 36060, San Francisco, CA
94102.



App-27
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.


Joint and Several

Case
Number
Defendant
and CoDefendant
Names
(including
defendant
number)

Total
Amount

Joint and
Several
Amount

Corresponding
Payee, if
appropriate



The defendant shall pay the cost of prosecution.



The defendant shall pay the following court
cost(s):



The defendant shall forfeit the defendant’s
interest in the following property to the United
States:
a)

Three Infratech night-vision rifle scopes
seized by the FBI from Irina Morgovsky’s
residence on August 25, 2016 and identified

App-28
in the United States’ Bill of Particulars (ECF
No. 183) as follows:
i. One optic lens, size small, tube serial
number 4654898, tube type F9815SLG;
ii. One optic lens, size medium, tube serial
number 4656232, tube type F9815SLG;
and
iii. One optic lens, size large, tube serial
number 4732440, tube type F9815SLG.
b)


A United States Passport Number 420799715
issued in the name of Victoria Ferrara.

The Court gives notice that this case involves
other defendants who may be held jointly and
severally liable for payment of all or part of the
restitution ordered herein and may order such
payment in the future, but such future orders do
not affect the defendant’s responsibility for the
full amount of the restitution ordered.

App-29
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________
USDC Case Number: CR-16-00411-001 VC
BOP Case Number: DCAN316CR00411-001
USM Number: 92623-111
Defendant’s Attorney:
William L. Osterhoudt (Retained)
________________
UNITED STATES OF AMERICA
v.
NAUM MORGOVSKY
________________
Filed December 13, 2018
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:


pleaded guilty to count: Nine, Ten, and Eleventh
of the Superseding Indictment.



pleaded nolo contendere to count(s): which was
accepted by the court.



was found guilty on count(s): after a plea of not
guilty.

App-30
The defendant is adjudicated guilty of these offenses:
Title &
Section
22 U.S.C.
§§ 2778 and
2778(c)

18 U.S.C.
§ 1956(a)(1)(B)
18 U.S.C.
§ 1956(a)(2)(A)

Nature of
Offense

Offense
Ended

Count

Conspiracy to
Violate the
International
Traffic in
Arms
Regulations
in Violations
of the Arms
Export
Control Act

August
25, 2016

9

Money
Laundering
Money
Laundering

February
9, 2015
June 13,
2016

10
11

The defendant is sentenced as provided in pages 2
through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.


The defendant has been found not guilty on
count(s):



Count(s) dismissed on the motion of the United
States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must

App-31
notify the court and United States attorney of material
changes in economic circumstances.
11/13/2018
Date of Imposition of Judgment

Signature of Judge
The Honorable Vince Chhabria
United States District Judge
Name & Title of Judge
12/13/2018
Date

App-32
DEFENDANT: Naum Morgovsky
CASE NUMBER: CR-16-00411-001 VC
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of: 108 months. This term consists of
terms of 108 months on each of Counts 9, 10, and 11,
all counts to be served concurrently.
The appearance bond is hereby exonerated, or upon
surrender of the defendant as noted below. Any cash
bail plus interest shall be returned to the owner(s)
listed on the Affidavit of Owner of Cash Security form
on file in the Clerk’s Office.


The
Court
makes
the
following
recommendations to the Bureau of Prisons:
Mr. Morgovsky be designated to Taft Camp in
Taft, California or if unavailable, then Lompoc
Camp in Lompoc, California and if these two
facilities are not available, then the Federal
Correctional Institution in Terminal Island,
California to facilitate family visitation.



The defendant is remanded to the custody of the
United States Marshal.



The defendant shall surrender to the United
States Marshal for this district:





at on (no later than 2:00 pm).



as notified by the United States Marshal.

The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:

App-33


by 2:00 pm on 1/4/2019 (no later than 2:00
pm). If a B.O.P. Facility has not been
designated by this date, the defendant is
ordered to resport to the U.S. Marshal’s
Office at 450 Golden Gate Ave., 20th Floor,
San Francisco.



as notified by the United States Marshal.



as notified by the Probation or Pretrial
Services Office.
RETURN

I have executed this judgment as follows:
Defendant delivered on _______________________
to _______________________________________ at
________________________________________ ,
with a certified copy of this judgment.
UNITED STATES MARSHAL
By:
DEPUTY UNITED STATES MARSHAL

App-34
DEFENDANT: Naum Morgovsky
CASE NUMBER: CR-16-00411-001 VC
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of: Three
years. This term consists of terms of three years on
each of Counts 9, 10, and 11, all such terms to run
concurrently.
MANDATORY CONDITIONS OF SUPERVISION
1) You must not commit another federal, state or
local crime.
2) You must not unlawfully possess a controlled
substance.
3) You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug
tests thereafter, as determined by the court.


The above drug testing condition is
suspended, based on the court’s
determination that you pose a low risk
of future substance abuse. (check if
applicable)

4) 

You must make restitution in accordance
with 18 U.S.C. §§ 3663 and 3663A or any
other statute authorizing a sentence of
restitution. (check if applicable)

5) 

You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)

App-35
6) 

You must comply with the requirements of
the Sex Offender Registration and
Notification Act (34 U.S.C. § 20901, et seq.)
as directed by the probation officer, the
Bureau of Prisons, or any state sex offender
registration agency in which you reside,
work, are a student, or were convicted of a
qualifying offense. (check if applicable)

7)



You must participate in an approved
program for domestic violence. (check if
applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
DEFENDANT: Naum Morgovsky
CASE NUMBER: CR-16-00411-001 VC
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the
court, and bring about improvements in your conduct
and condition.
1)

You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of RELEASE, unless the
probation officer instructs you to report to a
different probation office or within a different
time frame.

App-36
2)

After initially reporting to the probation office,
you will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must
report to the probation officer as instructed.

3)

You must not knowingly leave the federal judicial
district where you are authorized to reside
without first getting permission from the court or
the probation officer.

4)

You must follow the instructions of the probation
officer related to the conditions of supervision.

5)

You must answer truthfully the questions asked
by your probation officer.

6)

You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements
(such as the people you live with, for example),
you must notify the probation officer at least 10
days before the change. If notifying the probation
officer in advance is not possible due to
unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming
aware of a change or expected change.

7)

You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by these and the special
conditions of your supervision that he or she
observes in plain view.

8)

You must work at least part-time (defined as 20
hours per week) at a lawful type of employment
unless excused from doing so by the probation

App-37
officer for schooling, training, community service
or other acceptable activities. If you plan to
change where you work or anything about your
work (such as your position or your job
responsibilities), you must notify the probation
officer at least 10 days before the change. If
notifying the probation officer at least 10 days in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
9)

You must not communicate or interact with
someone you know is engaged in criminal activity.
You must not associate, communicate, or interact
with any person you know has been convicted of a
felony, unless granted permission to do so by the
probation officer.

10) If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
11) You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12) You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose
of causing bodily injury or death to another person
such as nunchakus or tasers).


If the probation officer determines that you pose a
risk to a third party, the probation officer may
require you to notify the person about the risk and

App-38
you must comply with that instruction. The
probation officer may contact the person and
confirm that you have notified the person about
the risk. (check if applicable)
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. I understand that the court may (1) revoke
supervision, (2) extend the term of supervision, and/or
(3) modify the conditions of supervision upon a finding
of a violation of probation or supervised release.
(Signed)

Defendant

Date

U.S. Probation Officer/
Designated Witness

Date

DEFENDANT: Naum Morgovsky
CASE NUMBER: CR-16-00411-001 VC
SPECIAL CONDITIONS OF SUPERVISION
1.

You must pay any special assessment and fine
that is imposed by this judgment and that
remains unpaid at the commencement of the term
of supervised release.

2.

You must not open any new lines of credit and/or
incur new debt without the prior permission of the
probation officer.

3.

You must provide the probation officer with access
to any financial information, including tax
returns, and shall authorize the probation officer

App-39
to conduct credit checks and obtain copies of
income tax returns.
4.

You must not possess any false identification and
shall provide your true identity at all times.

5.

You must cooperate in the collection of DNA as
directed by the probation officer.

6.

You must not own or possess any firearms,
ammunition, destructive devices, or other
dangerous weapons.

7.

You must submit your person, residence, office,
vehicle, electronic devices and their data
(including cell phones, computers, and electronic
storage media), or any property under your
control to a search. Such a search shall be
conducted by a United States Probation Officer or
any federal, state or local law enforcement officer
at any time with or without suspicion. Failure to
submit to such a search may be grounds for
revocation; you must warn any residents that the
premises may be subject to searches.

App-40
DEFENDANT: Naum Morgovsky
CASE NUMBER: CR-16-00411-001 VC
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments.

TOTALS

Assessment

JVTA
Assessment *

Fine

Restitution

$300

N/A

$1,000,000

N/A



The determination of restitution is deferred until
. An Amended Judgment in a Criminal Case (AO
245C) will be entered after such determination.



The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.

If the defendant makes a partial payment, each payee
shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or
percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.

*

22.

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-

App-41
Name of
Payee

Total
Loss **

Restitution
Ordered

Priority of
Percentage

***
TOTALS

$0.00

$0.00



Restitution amount ordered pursuant to plea
agreement $



The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(f). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).



The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:


the interest requirement is waived for the .



the interest requirement is waived for the is
modified as follows:

** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23,
1996.

App-42
DEFENDANT: Naum Morgovsky
CASE NUMBER: CR-16-00411-001 VC
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows*:
A 

Lump sum payment of ___________________
due immediately, balance due


not later than, or



in accordance with C, D, or E,
and/or F below); or

B 

Payment to begin immediately (may be
combined with C, D, or F below); or

C 

Payment in equal (e.g., weekly, monthly,
quarterly) installments of _ over a period of
(e.g., months or years), to commence (e.g.,
30 or 60 days) after the date of this
judgment; or

D 

Payment in equal (e.g., weekly, monthly,
quarterly) installments of _ over a period of
(e.g., months or years), to commence (e.g.,
30 or 60 days) after release from
imprisonment to a term of supervision; or

*
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution,
(7) penalties, and (8) costs, including cost of prosecution and
court costs.

App-43
E 

Payment during the term of supervised
release will commence within (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay
at that time; or

F

Special instructions regarding the payment
of criminal monetary penalties:
During imprisonment, payment of
monetary penalties, totaling $1,000,300, is
due at the rate of not less than $25 per
quarter and payment shall be through the
Bureau of Prisons Inmate Financial
Responsibility Program. Once the
defendant is on supervised release, the
monetary penalties must be paid in
monthly payments of not less than $28,000
or at least 10 percent of earnings,
whichever is greater, to commence no later
than 30 days from placement on
supervision. Notwithstanding any payment
schedule set by the Court, the United
States Attorney’s Office may pursue
collection through all available means in
accordance with 18 U.S.C. §§3613 and
3644(m). Criminal monetary payments
shall be made to the Clerk of U.S. District
Court, Attention: Financial Unit, 450
Golden Gate Ave., Box 36060, San
Francisco, CA 94102.



Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during

App-44
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.


Joint and Several

Case
Number
Defendant
and CoDefendant
Names
(including
defendant
number)

Total
Amount

Joint and
Several
Amount

Corresponding
Payee, if
appropriate



The defendant shall pay the cost of prosecution.



The defendant shall pay the following court
cost(s):



The defendant shall forfeit the defendant’s
interest in the following property to the United
States:
a)

$222,929.61

b)

Three Infratech night-vision rifle scopes
seized by the FBI from Naum Morgovsky’s
residence on August 25, 2016 and identified
in the United States’ Bill of Particulars (ECF
No. 183) as follows:

App-45
i. One optic lens, size small, tube serial
number 4654898, tube type F9815SLG;
ii. One optic lens, size medium, tube serial
number 4656232, tube type F9815SLG;
and
iii. One optic lens, size large, tube serial
number 4732440, tube type F9815SLG.


The Court gives notice that this case involves
other defendants who may be held jointly and
severally liable for payment of all or part of the
restitution ordered herein and may order such
payment in the future, but such future orders do
not affect the defendant’s responsibility for the
full amount of the restitution ordered.

App-46
Appendix D
Excerpts of Transcript
[1] UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________
No. CR-16-00411 VC
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

NAUM MORGOVSKY; IRINA MORGOVSKY,
Defendants.
________________
Before the Honorable Vince Chhabria, Judge
San Fanscisco, California
Wednesday, January 16, 2019
Filed January 17, 2019
***
[53] MR. SAMPSON: There’s two money
laundering counts. The Court sentenced Mr.
Morgovsky to nine years on those counts concurrently.
And so it is unlikely that he would receive a zero jail
sentence.
THE COURT: Does it matter? I meant to ask that
question to Ms. Falk. But the money laundering, does
it matter that the money laundering was in
furtherance of this conspiracy?
MR. SAMPSON: It does not say that the money
laundering is in furtherance of the conspiracy, Your

App-47
Honor. It says it’s to promote the carrying on of
violations of the ITAR statute.
[54] THE COURT: What's the difference?
MR. SAMPSON: Well, they would have to succeed
in not just winning on the idea that the conspiracy is
not allowed by statute but that the entire statute itself
is invalidated.
And, Your Honor, just going back 30 minutes or
so, I’m not aware of any authority that says that a
conspiracy has to be in a different statute than the
substantive crime.
And, Your Honor, there’s only one criminal
statute that -- under Title 22, as far as I’m aware. It
says violations of this statute and any -- of this title
and the rules promulgated thereunder are punishable
by 20 years.
So it provides the penalty, and it says -THE COURT: I’m sorry, could you say that one
more time? I apologize. I didn’t follow.
MR. SAMPSON: It said that violations -THE COURT: What said?
MR. SAMPSON: The criminal statute 2778, 22
U.S.C -THE COURT: Okay.
MR. SAMPSON: -- says that violations of the
rules promulgated under the title, Title 22, governing
exports, are punishable by 20 years of prison. And it
then explicitly delegates it to the agency to define the
violations of that statute. * * *

App-48
Appendix E
Relevant Constitutional Provisions,
Statute, Regulation, & Rule
U.S. Const. art. I, § 1
All legislative Powers herein granted shall be
vested in a Congress of the United States, which shall
consist of a Senate and House of Representatives.

App-49
U.S. Const. art. III, § 2
The judicial Power shall extend to all Cases, in
Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made, or
which shall be made, under their Authority; — to all
Cases affecting Ambassadors, other public Ministers
and Consuls; — to all Cases of admiralty and maritime
Jurisdiction; — to Controversies to which the United
States shall be a Party; — to Controversies between
two or more States; — [between a State and Citizens
of another State;] between citizens of different
States;— between Citizens of the same State claiming
Lands under Grants of different States [and between
a State, or the Citizens thereof; — and foreign States,
Citizens or Subjects.]
In all Cases affecting Ambassadors, other public
Ministers and Consuls, and those in which a State
shall be Party, the supreme Court shall have original
Jurisdiction. In all other Cases before mentioned, the
supreme Court shall have appellate Jurisdiction, both
as to Law and Fact, with such Exceptions, and under
such Regulations as the Congress shall make.
The Trial of all Crimes, except in Cases of
Impeachment, shall be by Jury; and such Trial shall
be held in the State where the said Crimes shall have
been committed; but when not committed within any
State, the Trial shall be at such Place or Places as the
Congress may by Law have directed.

App-50
22 U.S.C. § 2778 Control of arms exports and
imports
(a) Presidential control of exports and imports of
defense articles and services, guidance of policy, etc.;
designation of United States Munitions List; issuance
of export licenses; negotiations information
(1) In furtherance of world peace and the security
and foreign policy of the United States, the President
is authorized to control the import and the export of
defense articles and defense services and to provide
foreign policy guidance to persons of the United States
involved in the export and import of such articles and
services. The President is authorized to designate
those items which shall be considered as defense
articles and defense services for the purposes of this
section and to promulgate regulations for the import
and export of such articles and services. The items so
designated shall constitute the United States
Munitions List.
(2) Decisions on issuing export licenses under this
section shall take into account whether the export of
an article would contribute to an arms race, aid in the
development of weapons of mass destruction, support
international terrorism, increase the possibility of
outbreak or escalation of conflict, or prejudice the
development of bilateral or multilateral arms control
or
nonproliferation
agreements
or
other
arrangements.
(3) In exercising the authorities conferred by this
section, the President may require that any defense
article or defense service be sold under this chapter as
a condition of its eligibility for export, and may require
that persons engaged in the negotiation for the export

App-51
of defense articles and services keep the President
fully and currently informed of the progress and
future prospects of such negotiations.
(b) Registration and licensing requirements for
manufacturers, exporters, or importers of designated
defense articles and defense services
(1)(A)(i) As prescribed in regulations issued under
this section, every person (other than an officer or
employee of the United States Government acting in
an official capacity) who engages in the business of
manufacturing, exporting, or importing any defense
articles or defense services designated by the
President under subsection (a)(1) of this section shall
register with the United States Government agency
charged with the administration of this section, and
shall pay a registration fee which shall be prescribed
by such regulations. Such regulations shall prohibit
the return to the United States for sale in the United
States (other than for the Armed Forces of the United
States and its allies or for any State or local law
enforcement agency) of any military firearms or
ammunition of United States manufacture furnished
to foreign governments by the United States under
this chapter or any other foreign assistance or sales
program of the United States, whether or not
enhanced in value or improved in condition in a
foreign country. This prohibition shall not extend to
similar firearms that have been so substantially
transformed as to become, in effect, articles of foreign
manufacture.
(ii)(I) As prescribed in regulations issued
under this section, every person (other than an
officer or employee of the United States

App-52
Government acting in official capacity) who
engages in the business of brokering activities
with respect to the manufacture, export, import,
or transfer of any defense article or defense
service designated by the President under
subsection (a)(1) of this section, or in the business
of brokering activities with respect to the
manufacture, export, import, or transfer of any
foreign defense article or defense service (as
defined in subclause (IV)), shall register with the
United States Government agency charged with
the administration of this section, and shall pay a
registration fee which shall be prescribed by such
regulations.
(II) Such brokering activities shall
include the financing, transportation, freight
forwarding, or taking of any other action that
facilitates the manufacture, export, or import
of a defense article or defense service.
(III) No person may engage in the
business of brokering activities described in
subclause (I) without a license, issued in
accordance with this chapter, except that no
license shall be required for such activities
undertaken by or for an agency of the United
States Government—
(aa) for use by an agency of the United
States Government; or
(bb) for carrying out any foreign
assistance or sales program authorized by
law and subject to the control of the
President by other means.

App-53
(IV) For purposes of this clause, the term
“foreign defense article or defense service”
includes any non-United States defense
article or defense service of a nature described
on the United States Munitions List
regardless of whether such article or service is
of United States origin or whether such article
or service contains United States origin
components.
(B) The prohibition under such regulations
required by the second sentence of subparagraph (A)
shall not extend to any military firearms (or
ammunition, components, parts, accessories, and
attachments for such firearms) of United States
manufacture furnished to any foreign government by
the United States under this chapter or any other
foreign assistance or sales program of the United
States if—
(i) such firearms are among those firearms
that the Secretary of the Treasury is, or was at
any time, required to authorize the importation of
by reason of the provisions of section 925(e) of title
18 (including the requirement for the listing of
such firearms as curios or relics under section
921(a)(13) of that title); and
(ii) such foreign government certifies to the
United States Government that such firearms are
owned by such foreign government.
(B) A copy of each registration made under this
paragraph shall be transmitted to the Secretary of the
Treasury for review regarding law enforcement
concerns. The Secretary shall report to the President
regarding such concerns as necessary.

App-54
(2) Except as otherwise specifically provided in
regulations issued under subsection (a)(1) of this
section, no defense articles or defense services
designated by the President under subsection (a)(1) of
this section may be exported or imported without a
license for such export or import, issued in accordance
with this chapter and regulations issued under this
chapter, except that no license shall be required for
exports or imports made by or for an agency of the
United States Government (A) for official use by a
department or agency of the United States
Government, or (B) for carrying out any foreign
assistance or sales program authorized by law and
subject to the control of the President by other means.
(3)(A) For each of the fiscal years 1988 and 1989,
$250,000 of registration fees collected pursuant to
paragraph (1) shall be credited to a Department of
State account, to be available without fiscal year
limitation. Fees credited to that account shall be
available only for the payment of expenses incurred
for—
(i) contract personnel to assist in the evaluation of
munitions control license applications, reduce
processing time for license applications, and
improve monitoring of compliance with the terms
of licenses; and
(ii) the automation of munitions control functions
and the processing of munitions control license
applications,
including
the
development,
procurement, and utilization of computer
equipment and related software.

App-55
(B) The authority of this paragraph may be
exercised only to such extent or in such amounts as
are provided in advance in appropriation Acts.
(c) Criminal violations; punishment
Any person who willfully violates any provision of
this section, section 2779 of this title, a treaty referred
to in subsection (j)(1)(C)(i), or any rule or regulation
issued under this section or section 2779 of this title,
including any rule or regulation issued to implement
or enforce a treaty referred to in subsection (j)(1)(C)(i)
or an implementing arrangement pursuant to such
treaty, or who willfully, in a registration or license
application or required report, makes any untrue
statement of a material fact or omits to state a
material fact required to be stated therein or
necessary to make the statements therein not
misleading, shall upon conviction be fined for each
violation not more than $1,000,000 or imprisoned not
more than 20 years, or both.
(d) Repealed. Pub. L. 96–70, title III, §3303(a)(4), Sept.
27, 1979, 93 Stat. 499
(e) Enforcement powers of President
In carrying out functions under this section with
respect to the export of defense articles and defense
services, including defense articles and defense
services exported or imported pursuant to a treaty
referred to in subsection (j)(1)(C)(i), the President is
authorized to exercise the same powers concerning
violations and enforcement which are conferred upon
departments, agencies and officials by subsections (c),
(d), (e), and (g) of section 11 of the Export
Administration Act of 1979 [50 U.S.C. App. 2410(c),
(d), (e), and (g)], and by subsections (a) and (c) of

App-56
section 12 of such Act [50 U.S.C. App. 2411(a) and (c)],
subject to the same terms and conditions as are
applicable to such powers under such Act [50 U.S.C.
App. 2401 et seq.], except that section 11(c)(2)(B) of
such Act shall not apply, and instead, as prescribed in
regulations issued under this section, the Secretary of
State may assess civil penalties for violations of this
chapter and regulations prescribed thereunder and
further may commence a civil action to recover such
civil penalties, and except further that the names of
the countries and the types and quantities of defense
articles for which licenses are issued under this
section shall not be withheld from public disclosure
unless the President determines that the release of
such information would be contrary to the national
interest. Nothing in this subsection shall be construed
as authorizing the withholding of information from
the Congress. Notwithstanding section 11(c) of the
Export Administration Act of 1979, the civil penalty
for each violation involving controls imposed on the
export of defense articles and defense services under
this section may not exceed $500,000.
(f) Periodic review of items on Munitions List;
exemptions
(1) The President shall periodically review the
items on the United States Munitions List to
determine what items, if any, no longer warrant
export controls under this section. The results of such
reviews shall be reported to the Speaker of the House
of Representatives and to the Committee on Foreign
Relations and the Committee on Banking, Housing,
and Urban Affairs of the Senate. The President may
not remove any item from the Munitions List until 30

App-57
days after the date on which the President has
provided notice of the proposed removal to the
Committee on International Relations of the House of
Representatives and to the Committee on Foreign
Relations of the Senate in accordance with the
procedures applicable to reprogramming notifications
under section 2394–1(a) of this title. Such notice shall
describe the nature of any controls to be imposed on
that item under any other provision of law.
(2) The President may not authorize an exemption
for a foreign country from the licensing requirements
of this chapter for the export of defense items under
subsection (j) of this section or any other provision of
this chapter until 30 days after the date on which the
President has transmitted to the Committee on
International
Relations
of
the
House
of
Representatives and the Committee on Foreign
Relations of the Senate a notification that includes—
(A) a description of the scope of the
exemption, including a detailed summary of the
defense articles, defense services, and related
technical data covered by the exemption; and
(B) a determination by the Attorney General
that the bilateral agreement concluded under
subsection (j) of this section requires the
compilation and maintenance of sufficient
documentation relating to the export of United
States defense articles, defense services, and
related technical data to facilitate law
enforcement efforts to detect, prevent, and
prosecute criminal violations of any provision of
this chapter, including the efforts on the part of
countries and factions engaged in international

App-58
terrorism to illicitly acquire sophisticated United
States defense items.
(3) Paragraph (2) shall not apply with respect to
an exemption for Canada from the licensing
requirements of this chapter for the export of defense
items.
(4) Paragraph (2) shall not apply with respect to
an exemption under subsection (j)(1) to give effect to a
treaty referred to in subsection (j)(1)(C)(i) (and any
implementing arrangements to such treaty), provided
that the President promulgates regulations to
implement and enforce such treaty under this section
and section 2779 of this title.
(g) Identification of persons convicted or subject to
indictment for violations of certain provisions
(1) The President shall develop appropriate
mechanisms to identify, in connection with the export
licensing process under this section—
(A) persons who are the subject of an
indictment for, or have been convicted of, a
violation under—
(i) this section,
(ii)
section
11
of
the
Export
Administration Act of 1979 (50 U.S.C. App.
2410),
(iii) section 793, 794, or 798 of title 18
(relating to espionage involving defense or
classified information) or section 2339A of
such title (relating to providing material
support to terrorists),

App-59
(iv) section 16 of the Trading with the
Enemy Act (50 U.S.C. App. 16),
(v) section 206 of the International
Emergency Economic Powers Act (relating to
foreign assets controls; 50 U.S.C. App. 1705)
[50 U.S.C. 1705],
(vi) section 30A of the Securities
Exchange Act of 1934 (15 U.S.C. 78dd–1) or
section 104 of the Foreign Corrupt Practices
Act (15 U.S.C. 78dd–2),
(vii) chapter 105 of title 18 (relating to
sabotage),
(viii) section 4(b) of the Internal Security
Act of 1950 (relating to communication of
classified information; 50 U.S.C. 783(b)),
(ix) section 57, 92, 101, 104, 222, 224, 225,
or 226 of the Atomic Energy Act of 1954 (42
U.S.C. 2077, 2122, 2131, 2134, 2272, 2274,
2275, and 2276),
(x) section 601 of the National Security
Act of 1947 (relating to intelligence identities
protection; [50 U.S.C. 3121]),
(xi) section 603(b) or (c) of the
Comprehensive Anti-Apartheid Act of 1986
(22 U.S.C. 5113(b) and (c)); or
(xii) section 3, 4, 5, and 6 of the
Prevention of Terrorist Access to Destructive
Weapons Act of 2004, relating to missile
systems designed to destroy aircraft (18
U.S.C. 2332g), prohibitions governing atomic
weapons (42 U.S.C. 2122), radiological

App-60
dispersal devices (18 U.S.C. 2332h), and
variola virus (18 U.S.C. 175b);
(B) persons who are the subject of an
indictment or have been convicted under section
371 of title 18 for conspiracy to violate any of the
statutes cited in subparagraph (A); and
(C) persons who are ineligible—
(i) to contract with,
(ii) to receive a license or other form of
authorization to export from, or
(iii) to receive a license or other form of
authorization to import defense articles or
defense services from, any agency of the
United States Government.
(2) The President shall require that each
applicant for a license to export an item on the United
States Munitions List identify in the application all
consignees and freight forwarders involved in the
proposed export.
(3) If the President determines—
(A) that an applicant for a license to export
under this section is the subject of an indictment
for a violation of any of the statutes cited in
paragraph (1),
(B) that there is reasonable cause to believe
that an applicant for a license to export under this
section has violated any of the statutes cited in
paragraph (1), or
(C) that an applicant for a license to export
under this section is ineligible to contract with, or
to receive a license or other form of authorization

App-61
to import defense articles or defense services
from, any agency of the United States
Government, the President may disapprove the
application. The President shall consider requests
by the Secretary of the Treasury to disapprove
any export license application based on these
criteria.
(4) A license to export an item on the United
States Munitions List may not be issued to a person—
(A) if that person, or any party to the export,
has been convicted of violating a statute cited in
paragraph (1), or
(B) if that person, or any party to the export,
is at the time of the license review ineligible to
receive export licenses (or other forms of
authorization to export) from any agency of the
United States Government, except as may be
determined on a case-by-case basis by the
President, after consultation with the Secretary of
the Treasury, after a thorough review of the
circumstances surrounding the conviction or
ineligibility to export and a finding by the
President that appropriate steps have been taken
to mitigate any law enforcement concerns.
(5) A license to export an item on the United
States Munitions List may not be issued to a foreign
person (other than a foreign government).
(6) The President may require a license (or other
form of authorization) before any item on the United
States Munitions List is sold or otherwise transferred
to the control or possession of a foreign person or a
person acting on behalf of a foreign person.

App-62
(7) The President shall, in coordination with law
enforcement and national security agencies, develop
standards for identifying high-risk exports for regular
end-use verification. These standards shall be
published in the Federal Register and the initial
standards shall be published not later than October 1,
1988.
(8) Upon request of the Secretary of State, the
Secretary of Defense and the Secretary of the
Treasury shall detail to the office primarily
responsible for export licensing functions under this
section, on a nonreimbursable basis, personnel with
appropriate expertise to assist in the initial screening
of applications for export licenses under this section in
order to determine the need for further review of those
applications for foreign policy, national security, and
law enforcement concerns.
(9) For purposes of this subsection—
(A) the term “foreign corporation” means a
corporation that is not incorporated in the United
States;
(B) the term "foreign government" includes
any agency or subdivision of a foreign
government, including an official mission of a
foreign government;
(C) the term "foreign person" means any
person who is not a citizen or national of the
United States or lawfully admitted to the United
States for permanent residence under the
Immigration and Nationality Act [8 U.S.C. 1101
et seq.], and includes foreign corporations,
international
organizations,
and
foreign
governments;

App-63
(D) the term "party to the export" means—
(i) the president, the chief executive
officer, and other senior officers of the license
applicant;
(ii) the freight forwarders or designated
exporting agent of the license application; and
(iii) any consignee or end user of any item
to be exported; and
(E) the term "person" means a natural person
as well as a corporation, business association,
partnership, society, trust, or any other entity,
organization, or group, including governmental
entities.
(h) Judicial review of designation of items as defense
articles or services
The designation by the President (or by an official
to whom the President's functions under subsection
(a) of this section have been duly delegated), in
regulations issued under this section, of items as
defense articles or defense services for purposes of this
section shall not be subject to judicial review.
(i) Report to Department of State
As prescribed in regulations issued under this
section, a United States person to whom a license has
been granted to export an item on the United States
Munitions List shall, not later than 15 days after the
item is exported, submit to the Department of State a
report containing all shipment information, including
a description of the item and the quantity, value, port
of exit, and end-user and country of destination of the
item.

App-64
(j) Requirements relating to country exemptions for
licensing of defense items for export to foreign
countries
(1) Requirement for bilateral agreement
(A) In general
The President may utilize the regulatory or
other authority pursuant to this chapter to
exempt a foreign country from the licensing
requirements of this chapter with respect to
exports of defense items only if the United States
Government has concluded a binding bilateral
agreement with the foreign country. Such
agreement shall—
(i) meet the requirements set forth in
paragraph (2); and
(ii) be implemented by the United States
and the foreign country in a manner that is
legally-binding under their domestic laws.
(B) Exception for Canada
The requirement to conclude a bilateral
agreement in accordance with subparagraph (A)
shall not apply with respect to an exemption for
Canada from the licensing requirements of this
chapter for the export of defense items.
(C) Exception for defense trade cooperation
treaties
(i) In general
The requirement to conclude a bilateral
agreement in accordance with subparagraph
(A) shall not apply with respect to an
exemption from the licensing requirements of

App-65
this chapter for the export of defense items to
give effect to any of the following defense
trade cooperation treaties, provided that the
treaty has entered into force pursuant to
article II, section 2, clause 2 of the
Constitution of the United States:
(I) The Treaty Between the
Government of the United States of
America and the Government of the
United Kingdom of Great Britain and
Northern Ireland Concerning Defense
Trade Cooperation, done at Washington
and London on June 21 and 26, 2007 (and
any implementing arrangement thereto).
(II) The Treaty Between the
Government of the United States of
America and the Government of Australia
Concerning Defense Trade Cooperation,
done at Sydney September 5, 2007 (and
any implementing arrangement thereto).
(ii) Limitation of scope
The United States shall exempt from the
scope of a treaty referred to in clause (i)—
(I) complete rocket systems (including
ballistic missile systems, space launch
vehicles, and sounding rockets) or
complete unmanned aerial vehicle
systems (including cruise missile systems,
target drones, and reconnaissance drones)
capable of delivering at least a 500
kilogram payload to a range of 300
kilometers, and associated production
facilities, software, or technology for these

App-66
systems, as defined in the
Technology Control Regime
Category I, Item 1;

Missile
Annex

(II) individual rocket stages, re-entry
vehicles and equipment, solid or liquid
propellant motors or engines, guidance
sets, thrust vector control systems, and
associated production facilities, software,
and technology, as defined in the Missile
Technology Control Regime Annex
Category I, Item 2;
(III) defense articles and defense
services listed in the Missile Technology
Control Regime Annex Category II that
are for use in rocket systems, as that term
is used in such Annex, including
associated production facilities, software,
or technology;
(IV) toxicological agents, biological
agents, and associated equipment, as
listed in the United States Munitions List
(part 121.1 of chapter I of title 22, Code of
Federal Regulations), Category XIV,
subcategories (a), (b), (f)(1), (i), (j) as it
pertains to (f)(1), (l) as it pertains to (f)(1),
and (m) as it pertains to all of the
subcategories cited in this paragraph;
(V) defense articles and defense
services specific to the design and testing
of nuclear weapons which are controlled
under United States Munitions List
Category XVI(a) and (b), along with

App-67
associated defense articles in Category
XVI(d) and technology in Category XVI(e);
(VI) with regard to the treaty cited in
clause (i)(I), defense articles and defense
services that the United States controls
under the United States Munitions List
that are not controlled by the United
Kingdom, as defined in the United
Kingdom Military List or Annex 4 to the
United Kingdom Dual Use List, or any
successor lists thereto; and
(VII) with regard to the treaty cited in
clause (i)(II), defense articles for which
Australian laws, regulations, or other
commitments would prevent Australia
from enforcing the control measures
specified in such treaty.
(2) Requirements of bilateral agreement
A bilateral agreement referred to 5 paragraph
(1)—
(A) shall, at a minimum, require the foreign
country, as necessary, to revise its policies and
practices, and promulgate or enact necessary
modifications to its laws and regulations to
establish an export control regime that is at least
comparable to United States law, regulation, and
policy requiring—
(i) conditions on the handling of all
United States-origin defense items exported
to the foreign country, including prior written
United States Government approval for any
reexports to third countries;

App-68
(ii) end-use and retransfer control
commitments, including securing binding
end-use and retransfer control commitments
from
all
end-users,
including
such
documentation as is needed in order to ensure
compliance and enforcement, with respect to
such United States-origin defense items;
(iii) establishment of a procedure
comparable to a “watchlist” (if such a
watchlist does not exist) and full cooperation
with United States Government law
enforcement agencies to allow for sharing of
export and import documentation and
background information on foreign businesses
and individuals employed by or otherwise
connected to those businesses; and
(iv) establishment of a list of controlled
defense items to ensure coverage of those
items to be exported under the exemption; and
(B) should, at a minimum, require the foreign
country, as necessary, to revise its policies and
practices, and promulgate or enact necessary
modifications to its laws and regulations to
establish an export control regime that is at least
comparable to United States law, regulation, and
policy regarding—
(i) controls on the export of tangible or
intangible technology, including via fax,
phone, and electronic media;
(ii) appropriate controls on unclassified
information relating to defense items
exported to foreign nationals;

App-69
(iii) controls on international
trafficking and brokering;

arms

(iv) cooperation with United States
Government agencies, including intelligence
agencies, to combat efforts by third countries
to acquire defense items, the export of which
to such countries would not be authorized
pursuant to the export control regimes of the
foreign country and the United States; and
(v) violations of export control laws, and
penalties for such violations.
(3) Advance certification
Not less than 30 days before authorizing an
exemption for a foreign country from the licensing
requirements of this chapter for the export of defense
items, the President shall transmit to the Committee
on International Relations of the House of
Representatives and the Committee on Foreign
Relations of the Senate a certification that—
(A) the United States has entered into a
bilateral agreement with that foreign country
satisfying all requirements set forth in paragraph
(2);
(B) the foreign country has promulgated or
enacted all necessary modifications to its laws and
regulations to comply with its obligations under
the bilateral agreement with the United States;
and
(C) the appropriate congressional committees
will continue to receive notifications pursuant to
the authorities, procedures, and practices of
section 2776 of this title for defense exports to a

App-70
foreign country to which that section would apply
and without regard to any form of defense export
licensing exemption otherwise available for that
country.
(4) Definitions
In this section:
(A) Defense items
The term “defense items” means defense
articles, defense services, and related technical
data.
(B) Appropriate congressional committees
The
term
“appropriate
committees” means—

congressional

(i) the Committee on International
Relations
and
the
Committee
on
Appropriations
of
the
House
of
Representatives; and
(ii) the Committee on Foreign Relations and
the Committee on Appropriations of the
Senate.

App-71
22 C.F.R. § 127.1 Violations.
(a) Without first obtaining the required license or
other written approval from the Directorate of Defense
Trade Controls, it is unlawful:
(1) To export or attempt to export from the
United States any defense article or technical
data or to furnish or attempt to furnish any
defense service for which a license or written
approval is required by this subchapter;
(2) To reexport or retransfer or attempt to
reexport or retransfer any defense article,
technical data, or defense service from one foreign
end-user, end-use, or destination to another
foreign end-user, end-use, or destination for
which a license or written approval is required by
this subchapter, including, as specified in
§ 126.16(h) and § 126.17(h) of this subchapter,
any defense article, technical data, or defense
service that was exported from the United States
without a license pursuant to any exemption
under this subchapter;
(3) To import or attempt to import any
defense article whenever a license is required by
this subchapter;
(4) To conspire to export, import, reexport,
retransfer, furnish or cause to be exported,
imported, reexported, retransferred or furnished,
any defense article, technical data, or defense
service for which a license or written approval is
required by this subchapter; or
(5) To possess or attempt to possess any
defense article with intent to export or transfer

App-72
such defense article in violation of 22 U.S.C. 2778
and 2779, or any regulation, license, approval, or
order issued thereunder.
(b) It is unlawful:
(1) To violate any of the terms or conditions of
a license or approval granted pursuant to this
subchapter, any exemption contained in this
subchapter, or any rule or regulation contained in
this subchapter;
(2) To engage in the business of brokering
activities for which registration and a license or
written approval is required by this subchapter
without first registering or obtaining the required
license or written approval from the Directorate
of Defense Trade Controls. For the purposes of
this subchapter, engaging in the business of
brokering activities requires only one occasion of
engaging in an activity as reflected in § 129.2(b)
of this subchapter.
(3) To engage in the United States in the
business of either manufacturing or exporting
defense articles or furnishing defense services
without complying with the registration
requirements. For the purposes of this
subchapter, engaging in the business of
manufacturing or exporting defense articles or
furnishing defense services requires only one
occasion of manufacturing or exporting a defense
article or furnishing a defense service.
(c) Any person who is granted a license or other
approval or acts pursuant to an exemption under this
subchapter is responsible for the acts of employees,
agents, brokers, and all authorized persons to whom

App-73
possession of the defense article, which includes
technical data, has been entrusted regarding the
operation, use, possession, transportation, and
handling of such defense article abroad. All persons
abroad subject to U.S. jurisdiction who obtain custody
of a defense article exported from the United States or
produced under an agreement described in part 124 of
this subchapter, and regardless of the number of
intermediate transfers, are bound by the regulations
of this subchapter in the same manner and to the same
extent as the original owner or transferor.
(d) A person who is ineligible pursuant to
§ 120.1(c)(2) of this subchapter, or a person with
knowledge that another person is ineligible pursuant
to § 120.1(c)(2) of this subchapter, may not, directly or
indirectly, in any manner or capacity, without prior
disclosure of the facts to and written authorization
from the Directorate of Defense Trade Controls:
(1) Apply for, obtain, or use any export control
document as defined in § 127.2(b) for such
ineligible person; or
(2) Order, buy, receive, use, sell, deliver,
store, dispose of, forward, transport, finance, or
otherwise service or participate in any manner in
any transaction subject to this subchapter that
may involve any defense article, which includes
technical data, defense services, or brokering
activities, where such ineligible person may
obtain any benefit therefrom or have any direct or
indirect interest therein.
(e) No person may knowingly or willfully attempt,
solicit, cause, or aid, abet, counsel, demand, induce,
procure, or permit the commission of any act

App-74
prohibited by, or the omission of any act required by
22 U.S.C. 2778, 22 U.S.C. 2779, or any regulation,
license, approval, or order issued thereunder.

App-75
Fed. R. Crim. P. 12(b)(3)
(b) Pretrial Motions. * * *
(3) Motions That Must Be Made Before Trial. The
following defenses, objections, and requests must be
raised by pretrial motion if the basis for the motion is
then reasonably available and the motion can be
determined without a trial on the merits:
(A) a defect in instituting the prosecution,
including:
(i) improper venue;
(ii) preindictment delay;
(iii) a violation of the constitutional right to a
speedy trial;
(iv) selective or vindictive prosecution; and
(v) an error in the grand-jury proceeding or
preliminary hearing;
(B) a defect in the indictment or information,
including:
(i) joining two or more offenses in the same
count (duplicity);
(ii) charging the same offense in more than
one count (multiplicity);
(iii) lack of specificity;
(iv) improper joinder; and
(v) failure to state an offense;
(C) suppression of evidence;
(D) severance of charges or defendants under Rule
14; and
(E) discovery under Rule 16.

